In the Supreme Court of the United States
IN RE CLEMENT MOSSERI, PETITIONER
ON PETITION FOR AN EXTRAORDINARY
WRIT OF MANDAMUS TO THE District Court
fr»r TVif> Smittipm F>ictrir>t nf Wf-w Vr»rV A nr)

The Second Circuit Court of Appeals et al.

AFFIRMATION OF SERVICE
I, Clement Mosseri, declare under penalty of peijury that I have served a copy of the attached,
Petition for An Extraordinary Writ Of Mandamus To The District Court for The Southern
District of New York, And The Second Circuit Court of Appeals et al. Upon:
Ruby Krajik, Clerk of Court for SDNY, Daniel Patrick Moynihan United States Courthouse,
500 Pearl Street, New York, NY 10007-1312,
Judge John Koeltl, Daniel Patrick Moynihan United States Courthouse,
500 Pearl Street. New York. NY 10007-1317.
Judge John Cronan, Daniel Patrick Moynihan United States Courthouse,
500 Pearl Street, New York, NY 10007-1312,
Judge Colleen McMahon, Chief Judge of SDNY, Daniel Patrick Moynihan United States
Courthouse, 500 Pearl Street, New York, NY 10007-1312,
Judge Robert Sack. Circuit Judge of the United States Court Anneals for the Second Circuit
Thurgood Marshall United States Courthouse, 40 Foley Square, New York, NY 10007,
Judge Richard Wesley, Circuit Judge of the United States Court Appeals for the Second Circuit
Thurgood Marshall United States Courthouse, 40 Foley Square, New York, NY 10007,
Judge Steven Menashi, Circuit Judge of the United States Court Appeals for the Second Circuit
Thurgood Marshall United States Courthouse. 40 Folev Sauare. New York. NY 10007.
Judge Debra Livingston, Chief Judge of the United States Court Appeals for the Second Circuit
Thurgood Marshall United States Courthouse, 40 Foley Square, New York, NY 10007,
Attorneys for Plaintiff, Borah, Goldstein, Altschuler, Nahins & Goidel, P.C., 377 Broadway,
New York, N.Y. 10013, (212 965-2663),
Letitia James, Attorney General for the State of New York. Office of the Attorney General, 28
Liberty Street. New York. NY 10005- ATTN: Managing Attorney’s Office/Personal Service.

i

Merrick B. Garland, Attorney General of the United States, U.S. Department of Justice, 950
Pennsylvania Avenue, NW, Washington, DC 20530-0001,
Judge Anne Katz, Supervising judge of the New York County Housing Court, 111 Centre Street,
New York, NY 10013.
By depositing said papers into a second day envelope with proper first-class postage and giving
said envelopes to the care of The US Postal Service for delivery.

Respectfullv submitted.

Dated Anril 28- 2021

1

